IN THE

~upreme

(!Court of tbe Wnitell ~tates
No.19-571

INTEL CORPORATION, IBIDEN U.S.A. CORPORATION, AND
IBIDEN COMPANY LIMITED,

Petitioner,
v.
CONTINENTAL CIRCUITS LLC,

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Federal Circuit
CERTIFICATE OF SERVICE

I hereby certify that on this 5th day of November, 2019, I caused one copy of
Respondent's November 5, 2019 Letter to the Clerk of the Court to be served on the
following by first-class mail, postage pre-paid, and e-mail:
Donald B. Verrilli Jr.
MUNGER, TOLLES &
OLSONLLP

1155 F Streeet N .W.
7th Floor
Washington, DC 20004
(202) 220-1101
donald.verrilli@mto.com

Counsel for Petitioners
Intel Corporation, Ibiden
U.S.A. Corporation, and
Ibiden Company Limited

I hereby certify that all parties required to be served have been served. I declare
under penalty of perjury that the foregoing is true and correct.
Executed on November 5, 2019.

2

